                                    UNITED STATES DEPARTMENT OF EDUCATION 

                                         OFFICE OF INSPECTOR GENERAL 

                                                               REGION V 

                                                       111 NORTH CANAL, SUITE 940 

                                                        CHICAGO, ILLINOIS 60606 


     Audit                                                     FAX: (312) 353-0244                                                     Investigation
(312) 886-6503                                                                                                                       (312) 353-7891

                                                                                                 FEB 0 3 ?nn~
                                                                                Control Number ED-OIG/A05-C0021

           Dr. Jerry McGlone, Superintendent 

           Ohio Central School System 

           1050 Freeway Drive North 

           Columbus, OR 43229

           Dear Dr. McGlone:

           This Final Audit Report presents the results of our audit of the Ohio Department of
           Rehabilitation and Correction's (ODRC) Grants to States/or Workplace and Community
           Transition Trainingfor Incarcerated Youth Offenders program (Youth Offenders
           Program) for the period July 1, 1998, through October 31, 2000. The Ohio Auditor of
           State identified issues related to ODRC's administration of the Youth Offenders Program.
           Our objective was to quantify ODRC's liability to the Department of Education for two
           issues. First, ODRC used federal funds to pay tuition for ineligible students. Second,
           ODRC paid tuition for courses that students did not attend. To accomplish this objective,
           we (1) determined if we could rely on ODRC internal auditors' work at seven
           participating correctional institutions, and (2) performed work at three correctional
           institutions.

           A draft ofthis report was provided to ODRC. In its response, ODRC generally concurred
           with our findings and recommendations. Based on additional documentation ODRC
           provided, we changed the questioned and unsupported amounts in Finding 1. Also,
           because ODRC could not provide supporting documentation, we changed all unsupported
           costs in Finding 1 to questioned costs and removed draft report recommendation 1.2. We
           summarized ODRC's response after each of the findings, and included a copy ofODRC's
           response, without its attachments, as Attachment 3.

                                                         AUDIT RESULTS
           ODRC did not comply with the applicable law, program terms, and cost principles for the
           Youth Offenders Program. As a result, we questioned $99,750 of tuition paid for
           ineligible students. In addition, we questioned $170,250 of tuition paid for courses that
           students did not attend. These liabilities included federal funds identified by ODRC
           internal auditors' work, which we determined was reliable, and our work at three
           correctional institutions.




                   Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Final Audit Report 	                                          ED-OIG/A05-C0021


Finding No. 1 	         ODRC Used Youth Offenders Program Funds To Pay Tuition
                        For Ineligible Students

ODRC used Youth Offenders Program funds of $99,750 to pay tuition for ineligible
students. The $99,750 included funds used for students who did not meet the length of
sentence requirement ($43,375), age requirement ($36,875), or education requirement
($19,500).

Subsection 821(f) of the Higher Education Amendments of 1998 provides that

      A youth offender shall be eligible for participation in a program receiving a grant
      under this section if the youth offender (1) is eligible to be released within 5 years,
      including a youth offender who is eligible for parole within such time; and (2) is 25
      years of age or younger.

Prior to the Higher Education Amendments of 1998, a similar requirement was
established by Public Law 103-382.

Subsection 821 (g) of the Higher Education Amendments of 1998, in the context of
explaining that graduate or remedial training may be provided, indicates that services are
targeted to students who have obtained a secondary school diploma or its recognized
equivalent. Also, the State of Ohio's Application for Workplace and Community
Transition Training for Incarcerated Youth Offenders, Section I.2.c, which was
incorporated as part of the program requirements, provides that

      Participants must have a GED [General Equivalency Development certificate] or
      high school diploma.

In addition, OMB Circular A-87, Cost Principles/or State, Local, and Indian Tribal
Governments, Attachment A, Paragraph c.1. (1997) provides that

      To be allowable under Federal awards, costs must...be adequately documented.

ODRC used Youth Offenders Program funds improperly to pay tuition for

    • 	 32 students who did not meet the length of sentence requirement because they
        were not eligible for release or parole within 5 years of starting in the program;
    • 	 37 students who did not meet the age requirement because they either turned 26
        years of age before they began the program, or after they began the program but
         before they started subsequent courses (at which time they no longer were
         eligible); and
    • 	 14 students who did not meet the education requirement because they did not
         have a GED or high school diploma.

During our audit period, ODRC did not have adequate controls to ensure students met the
Youth Offenders Program's eligibility requirements. Subsequently, ODRC strengthened



                                              2

Final Audit Report 	                                           ED-OIG/A05-C0021


its controls and they now appear adequate to ensure students are eligible. Details of the
questioned costs are shown in Attachment 1.

Recommendations

We recommend that the Assistant Secretary for Vocational and Adult Education instruct
ODRCto

        1.1 	   refund to the Department of Education questioned tuition costs of$99,750
                paid for ineligible students; and

        1.2 	   periodically review student eligibility to ensure the revised controls
                prevent it from paying tuition for ineligible students.

Auditee Comments

ODRC generally concurred with our finding and recommendations. Its response did state
that it could justify a small number of students and dollar amounts. ODRC provided
additional documentation to support its position. It also indicated that two issues based
on non-federal criteria that the internal auditors reported might have falsely inflated the
number of students and dollars involved in this audit report. ODRC stated that it had
taken corrective action to improve controls to ensure that it did not pay tuition for
ineligible students.

Auditor Response

We reviewed the additional documentation ODRC provided and made appropriate
adjustments. We reduced the number of ineligible students by four and the questioned
and unsupported amounts by $3,000 each. Our finding reported as ineligible only those
students who did not meet federal criteria, so the issues based on non-federal criteria did
not inflate the number of ineligible students and the dollars questioned. The ODRC
response did not indicate that it will periodically test the improved controls to ensure they
are working and it is not paying tuition for ineligible students.

Finding No. 2 	         ODRC Used Youth Offenders Program Funds To Pay Tuition
                        For Students Who Did Not Attend The Courses

ODRC used Youth Offenders Program funds of$170,250 to pay tuition for students who
did not attend the courses.

OMB Circular A-87, Cost Principles/or State, Local, and Indian Tribal Governments,
Attachment A provides that

       To be allowable under Federal awards, costs must...be allocable to Federal awards
       and ... be adequately documented. Paragraph C.l. (1997).




                                              3

Final Audit Report 	                                          ED-OIG/A05-C0021


Colleges provided courses under a financial arrangement with ODRC. The colleges did
not bill ODRC until after the 15 th day of each term. For students who dropped after the
15th day, or otherwise did not complete a course, transcripts indicated withdrawal or
incom~lete for the course. Transcripts for students who did not attend or dropped prior to
the 15 t day did not include information on the course. However, during our audit period,
ODRC did not have adequate controls to ensure it used Youth Offenders Program funds
to pay tuition only when students attended the courses. As a result, ODRC paid tuition
for 241 students for whom the transcripts did not include grades, withdrawal information,
or any other indication that the students attended courses paid for with $170,250 of Youth
Offenders Program funds. Because the transcripts do not document the students'
attendance, and because ODRC did not furnish any other reliable evidence showing
attendance, the tuition costs paid for courses that students did not attend are unallowable.

Subsequently, ODRC strengthened its controls, and they now appear adequate to ensure
ODRC only pays tuition when students attend courses. Details of the questioned costs
are shown in Attachment 2.

Recommendations

We recommend that the Assistant Secretary for Vocational and Adult Education instruct
ODRCto

        2.1 	   refund to the Department of Education questioned tuition costs of
                $170,250 paid for students who did not attend the courses; and

        2.2 	   periodically verify student attendance to ensure the revised controls
                prevent paying tuition when students do not attend courses.

Auditee Comments

ODRC concurred with our finding and recommendations. The ODRC response indicated
that it had taken corrective action to improve controls to ensure it did not pay tuition for
students who did not attend the courses.

Auditor Response

The ODRC response did not indicate that it will periodically test the improved controls to
ensure they are working and it is not paying tuition for students who do not attend the
courses.




                                              4

Final Audit Report 	                                                     ED-OIG/A05-C0021



                                         BACKGROUND 


ODRC supervises operations in 33 correctional institutions. ODRC, via the Ohio Central
School System, provides advanced employment skills training to inmates through Ohio
colleges and universities.

The Youth Offenders Program provides funds to designated state correctional education
agencies to establish a postsecondary education or postsecondary vocational training
program for eligible incarcerated youth offenders. An eligible youth offender is an
individual, age 25 or younger, who is incarcerated in a state correctional institution and is
within 5 years of release or parole eligibility. Under the Youth Offenders Program, the
Department of Education awarded ODRC $761,846, $625,107, and $681,294 for the
1998, 1999, and 2000 federal award years, respectively.

The Youth Offenders Program is authorized by Title VIII, Part D, of the Higher
Education Amendments of 1998. Prior to the Higher Education Amendments of 1998,
the program was authorized by Public Law 103-382. It is subject to the provisions
contained in the Education Department General Administrative Regulations, and OMB
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments.

                 OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to quantify ODRC's liability to the Department of Education for the
period July 1, 1998, through October 31, 2000, for two issues. First, ODRC used federal
funds to pay tuition for ineligible students. Second, ODRC paid tuition for courses that
students did not attend. To accomplish this objective, we (1) determined if we could rely
on ODRC internal auditors' work at seven participating correctional institutions, and (2)
performed work at three correctional institutions. Specifically, we

1. 	   reviewed selected aspects and the related working papers of the special audit report
       titled Ohio Department ofRehabilitation and Correction, Aramark Contract and
       the College Programs for the period July 1, 1998, through October 31, 2000,
       prepared by the Ohio Auditor of State;
                                                                            l
2. 	   reviewed selected aspects and the related working papers of nine internal audit
       reports for the period July 1, 1998, through June 30, 2000, prepared by ODRC's
                                                                                        2
       internal auditors, and tested the internal auditors' work for one of the reports ;
3. 	   reviewed written policies, procedures, and organizational descriptions;
4. 	   reviewed ODRC's May 1998 application and fiscal year 2001 annual grant report;
5. 	   reviewed grant awards, sub-grant award notifications, accounting records, vouchers,
       student listings, database reliability reports (for two colleges), college transcripts,
       ODRC database printouts, student academic and master files, and other documents


1 Of the nine reports, two reports covered one correctional institution and one report had no Youth
Offenders Program findings. 

2 Based on our test of the internal auditor's work, we concluded that we could rely on that work and use it 

as a basis for establishing the liability. 



                                                      5

Final Audit Report 	                                           ED-OIG/A05-C0021


       to determine student eligibility and attendance for all students in a universe of 372
       students at three correctional institutions; and
6. 	   interviewed ODRC employees, college employees, Department of Education
       personnel, and an Ohio Auditor of State employee.

To achieve our audit objective, we relied, in part, on computer-processed data contained
in ODRC's computer system. We did not assess the general and application controls.
We assessed the reliability of the data by comparing sentence completion and parole
dates to information that was part of each student's master file. Based on these tests, we
concluded the data are sufficiently reliable to be used in meeting the audit's objective.

We conducted our field work from June 17, 2002, through August 22, 2002, at the State
of Ohio Office of the Auditor in Columbus, Ohio; ODRC administrative offices in
Columbus, Ohio; Hocking College in Nelsonville, Ohio; Pickaway Correctional
Institution in Orient, Ohio; Marion Correctional Institution in Nelsonville, Ohio;
Southeastern Correctional Institution in Lancaster, Ohio; and Fireproof Business Storage
Center in Grove City, Ohio.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

               STATEMENT ON MANAGEMENT CONTROLS

As part of our review, we did not assess the adequacy of ODRC's management control
structure applicable to the Youth Offenders Program. Instead, we (1) gained an
understanding of controls, policies, procedures, and practices related to student eligibility
and attendance, and (2) relied on substantive testing. Our testing disclosed instances of
non-compliance with federal regulations that led us to believe weaknesses existed in
ODRC's controls over the Youth Offenders Program. These weaknesses and their effects
are discussed in the AUDIT RESULTS section of this report.




                                               6

Final Audit Report                                           ED-OIG/A05-C0021


                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvement, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the
appropriate Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Department
of Education official, who will consider them before taking final action on the audit:

                              Carol D'Amico
                              Assistant Secretary for
                               Vocational and Adult Education
                              Mary E. Switzer Building
                              Room 4090
                              330 C Street, SW
                              Washington, DC 20202-7100

Office of Management and Budget Circular A-50 directs federal agencies to expedite
the resolution of audits by initiating timely action on the findings and
recommendations contained therein. Therefore, receipt of your comments within 30
days would be greatly appreciated.

In accordance with Freedom ofInformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available, if requested, to members of the press
and general public to the extent information contained therein is not subject to
exemptions in the Act.

If you have any questions or wish to discuss the contents of this report, please contact me
at 312-886-6503. Please refer to the control number in all correspondence relating to this
report.

                                      Sincerely,




                                      Regional Inspector General
                                       for Audit

Attachments




                                             7

Final Audit Report                                                                                                        Attachment 1
ED-OIG/A05-COO21                                                                                                            Page 1 ofl

              SCHEDULE OF QUESTIONED AND UNSUPPORTED
                       COSTS FOR FINDING NO.1

                             Sentence Length                     Age                 Education
                                                                                                               Total
                             Students    Questioned       Students Questioned    Students   Questioned       Questioned
      ODRC Internal
      Audit Results
      Correctional
      Reception Center                       $1,500               0         $0                  $1,500           $3,000
      London Correctional
      Institution (2)                         1,500              2       2,250          0                0        3,750
      Madison Correctional
      Institution                   2         3,000              2       1,875          0                0        4,875
  Ohio Reformatory for
  Women                             0                 0          3       4,500          0                0        4,500
  Orient Correctional
  Institution                       3         4,500              2       3,000         11       15,750          23,250
  Trumbull
  Correctional
  Institution                       0                 0          0           0                      750             750
  Warren Correctional
  Institution                       ~        1,500             ~             0         ~
                                                                                                __0              1,500
              Sub-Totals            2      $12,000             ---.2   $11.625         11      $18,000         $41.625

  ED-OIG Results
  Marion Correctional
  Institution                       6      $10,125             15      $13,875          0            $0        $24,000
  Southeastern
  Correctional
  Institution                     10        12,375               7       5,375                    1,500          19,250
  Pickaway
  Correctional
  Institution                     ...2       8,875            ~          6,000        ~         __0             14,875
              Sub-Totals          21       $31.375            z.a      $25,250          1       ~              $58.125

                   Totals         32       $43.375            n        $36,875        lA       $19,500         $99,75Jl

(1)      Represents costs from two audits. ODRC internal auditors issued two audit reports
         because two colleges provided training at the institution.




                                                                                                                      - - - - -------
Final Audit Report                                                                         Attachment 2
ED-OIG/A05-C0021                                                                             Page 1 of1



                            SCHEDULE OF QUESTIONED
                             COSTS FOR FINDING NO.2


                                                      Students       Questioned

         ODRC Internal Audit Results

         Correctional Reception Center                           0                    $0

         London Correctional Institution (1)                  20                  13,875

         Madison Correctional Institution                     27                  20,250

         Ohio Reformatory for Women                              8                 6,750

         Orient Correctional Institution                      20                  12,000

         Trumbull Correctional Institution                       0                     0

         Warren Correctional Institution                      ~                     0
                                      Sub-Totals              ~               $52.875

         ED-OIG Results

         Marion Correctional Institution                      27              $13,500

        Southeastern Correctional Institution                 63                  42,875

        Pickaway Correctional Institution                   ...1§.             61,000
                                      Sub-Totals            .16.6            $117.375

                                             Totals         241              $170.250



(1)   Represents costs from two audits. ODRC internal auditors issued two audit reports
      because two colleges provided training at the institution.
Final Audit Report                                                                                                        Attachment 3 

ED-OIG/A05-C0021                                                                                                            Page 1 of2 




                                Ohio Department of.Reha,bilitation and Correction

                                                                                                 1050 Freeway' Drive North
                                                                                                   Columbus, Ohio 43229

     Bob Taft, Governor                                                                         Reginald A. Wilkinson, Director



                 Dec:ember 12, 2002


                RichardJ. Dowd
                Regional Inspector General for Audits
                Office ofInspector General
                Region V
                111 North Canal, Suite 940
                Chicago, IJlinois 60606

                Dear Mr. Dowd,

                        The Ohio Department of Rehabilitation and Correction's Ohio Central School
                System has received and" revie~ed the Draft Audit Report (Control Number ED­
                OIG/A05-C0021) issued by your office. We appreciate the opportunity to comment on
                the findings and recommendations made in this report.

                       The fmdings of the report are substantially accurate based on the records we have
                reviewed. A small number of students and dollar 8J.D)unts can be justified in each
                category based on more thorough review of existing records. I have attached several
                examples ofeach to this memo. (Attac1nnents 1-4)

                          The recommendations made are in agreement with steps already taken to correct
                and prevent reoccurrences of issues discovered in the first years of the Grant. I have also
                attached the current polices that outline the accountability measures that are in place.
                (Attac1nnent 5)                                .                        .

                          Specifically addressing the ED-OIG Draft results several things seem important to
                 note. Approximately 66% of the unsupported student expenditures were in the area of
                 at:tendan¢e. (Finding #2) Length of sentence being the next highest area, fullowed by
                 age and lastly by prior education requirements. The findings, broken down to a per
                 school year, refleCt an even more important issue. 1998-1999 school year~wrted fur
                 approximately 57% of' the total findings.' The 1999-2000 school year reflects
                 approximately 39% of the total findings with' 2000·2()()1 8J.D)unting to only 3% of the
                 total findings.

                        The 1998-1999 school year was the fJ1'st year fur this Grant to the depart:men.t
                 Several issues were not tOOroughly explored and direction was given that proved to need
                 revision in"later years. A single list of students was developed from Summer Quartet of
                 that year based on enrollment and the amount of the sub grant to each college. This list


                                            Ohio Quality Corrections .••
                                                   . • . Quality Services through Partnership
Final Audit Report                                                                                          Attachment 3 

ED-OIG/A05-C0021                                                                                              Page 2 of2 





              was subsequently used for invoicing purposes for the remainder of the year. If the inmate
              student was released, transferred, withdrawn from college or reached the age of 26 before
              later quartets, the invoice continued to show he was attending classes. The colleges in
              many cases, substituted other inmates for these students no longer in the program. but this
              has proven impOssible to substantiate. If shown, it does not change the inappropriate .
              billing used at that time.

                     Based on our own review of the policy, changes were implemented beginning in
              school year 1999-2000. A marked reduction in errors in all areas begins in this year, with
              a reduction to 39% of the three years errors found in that year. As these new policies and
              procedures are fully in place in school year 2000-2001 the total error for the report drop
              to 3% of the total. Our own quality improvement processes initiated this improvement.

                      In regards to the ODRC Intemal Audit Results two issues should be noted. Firstly
              this audit cites in its total inmates that did not obtain a certain proficiency of reading
              skills. Secondly it cites inmates that did not complete a community service component.
              Neither of these items were criteria for the federal review and thus may falsely elevate
              the numbers of students and dollars involved.

                      Based on the Draft Audit Report and this response I believe that mistakes were
              made in the first years of this grant. These mistakes were just that, mistakes, with no
              intent to defraud or to personally nor professionally benefit any school or individual. As
              the policies evolved the problem areas were corrected, with that improvement being an
              ongoing process. We are to a point that 4 supervisory staff members review the invoice
              for accuracy prior to submitting it for payment. The margin of error speaks of this
              improvement.

                     Several documents are attacbed for your review.

                     Thank yOu for your consideration of this impOrtant matter.
